IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
WILLIAM C. MCGEE,
Defendant.

)
)
)
)
)
)
)
)

No. 18-00170-01-CR-W-BP

ORDER DENYING DEFENDANT’S MOTION FOR NEW TRIAL
Now pending is Defendant’s motion for new trial. (Doc. 104.) For the reasons discussed
below, Defendant’s motion is DENIED.
I. BACKGROUND
On June 26, 2018, Defendant was indicted for being a felon in possession of a firearm in
violation of 18 U.S.C. §§ 922(g)(1) and 924(e)(1). (Doc. 8.) On April 4, 2019, a jury found
Defendant guilty of the crime as alleged in the Indictment. (Doc. 73.) At the time the jury rendered
its verdict it was only required to find that (1) the defendant had been convicted of a crime
punishable by imprisonment for more than one year, (2) the defendant knowingly possessed a
firearm, and (3) the firearm was transported across a state line at some point during or before the
defendant’s possession of it. (See Doc. 72, p. 21.)
Then, on June 21, 2019, the Supreme Court decided United States v. Rehaif, 139 S. Ct.
2191 (2019). In Rehaif, the Court held that “in a prosecution under 18 U.S.C. § 922(g) . . . the
Government must prove both that the defendant knew he possessed a firearm and that he knew he
belonged to the relevant category of persons barred from possessing a firearm.” Rehaif, 139 S. Ct.
at 2200.

App A
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 1 of 6
1

On March 3, 2020, Defendant filed a motion for new trial after receiving leave to do so.
(Doc. 104.) Defendant’s primary argument is that the jury was wrongly instructed on the elements
of the relevant crime, which violated his Fifth and Sixth Amendment rights. (Id. at p. 5.) The
Government opposes the motion. (Doc. 107.) After considering the parties’ briefing and the
relevant Eighth Circuit case law, the Court concludes that Defendant’s motion for new trial should
be denied.
II. DISCUSSION
Under Federal Rule of Criminal Procedure 33, “[u]pon the defendant’s motion, the court
may vacate any judgment and grant a new trial if the interest of justice so requires.” FED. R. CRIM.
P. 33(a). To determine whether a new trial is appropriate, the Court should “balance the alleged
errors against the record as a whole and evaluate the fairness of the trial[.]” United States v. Eagle,
137 F.3d 1011, 1014 (8th Cir. 1998) (citing United States v. McBride, 862 F.2d 1316, 1319 (8th
Cir. 1988) (internal quotations omitted)).

Unless the Court “ultimately determines that a

miscarriage of justice will occur, the jury’s verdict must be allowed to stand.” United States v.
Campos, 306 F.3d 577, 579 (8th Cir. 2002).
Because Defendant failed to raise the instructional error at trial, the Court reviews for plain
error. United States v. Welch, 951 F.3d 901, 907 (8th Cir. 2020). “Plain error is (1) an error (2)
that was obvious and (3) that affected the defendant’s substantial rights and (4) that seriously
affected the fairness, integrity, or public reputation of judicial proceedings.” Id. (citing United
States v. Hollingshed, 940 F.3d 410, 415 (8th Cir. 2019); United States v. Olano, 507 U.S. 725
(1993) (quotations omitted)). Under plain error review, the defendant has the burden of proving
that plain error exists. This is in contrast to review for harmless error, where the Government has

2
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 2 of 6
2

the burden of proving that any error is harmless. United States v. Pirani, 406 F.3d 543, 550 (8th
Cir. 2005).
The Eighth Circuit has held – and the Government concedes (see Doc. 107, p. 5) – that the
“absence of an instruction requiring the jury to find that [Defendant] knew he was a felon” is a
clear error under Rehaif. Hollingshed, 940 F. 3d at 415. However, Defendant has failed to prove
elements three and four of the plain-error test. See id. “To prove the alleged error affected his
substantial rights, [Defendant] must show a reasonable probability that, but for the error, the
outcome of the proceeding would have been different.” Id. (citing Hollingshed, 940 F.3d at 415–
16; Molina-Martinez v. United States, 136 S. Ct. 1338, 1343 (2016)).
Defendant cannot show a reasonable probability of a different outcome absent the
instructional error. Defendant stipulated at trial that he had previously been convicted of a crime
punishable by a term exceeding one year. Although this does not completely resolve the issue of
whether Defendant knew he was a felon, see Hollingshed, 940 F.3d at 415, there is other evidence
in the Record demonstrating Defendant’s knowledge of his prohibited status.
In 1998, a jury found Defendant guilty of two counts delivery/manufacture of a controlled
substance less than 50 grams; one count of manufacture or distribution of imitation controlled
substance; and one count of delivery/manufacture of a narcotic or cocaine 50 to 224 grams. (Doc.
84, ¶ 31–34.) 1 In October 1998 Defendant was sentenced to 1 to 30 years’ incarceration on each
count of delivery/manufacture of a controlled substance less than 50 grams; 1 to 3 years for
manufacture or distribution of imitation controlled substance; and 1 to 20 years for
delivery/manufacture of a narcotic or cocaine 50 to 224 grams – each sentence to run consecutive.
(Id.)

1

Defendant’s criminal history is contained in the Presentence Investigation Report, and Defendant has not objected
to the accuracy of the criminal history contained therein.

3
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 3 of 6
3

Defendant appealed; the judgment was vacated 2 and the case remanded for a new trial, but
in February 2004, Defendant pled guilty to substantially the same charges and was sentenced to
10 to 20 years’ custody for the delivery/manufacture of a narcotic or cocaine 50 to 449 grams;
lifetime probation on each count of delivery/manufacture of a controlled substance less than 50
grams; and one year probation for the manufacture or distribution of imitation controlled
substance. (Doc. 84, ¶ 31–34.) Defendant was paroled in May 2004, but in May 2006 Defendant
was sentenced to 1 to 30 years’ imprisonment for violating the terms of his probation and was
incarcerated for approximately one and one-half years from May 2006 until he was paroled in
December 2007. (Id.) He violated the terms of his parole and was again incarcerated for
approximately one and one-half years from September 2008 until December 2009. (Id.) Thus,
Defendant knew that he had been convicted of a crime punishable by more than one year because
(1) he pled guilty to the same crimes that he was found guilty of and sentenced for in 1998, each
of which was punishable by more than one year, (2) he was sentenced to 10 to 20 years on one
count and was incarcerated for at least seven years on that count and (3) he was incarcerated for
approximately three years on two other counts.
These facts, combined with Defendant’s attempt to conceal his firearm when the police
arrived at the scene, support the conclusion that Defendant knew of his prohibited status as a felon. 3
See United States v. Warren, 2020 WL 1056851, at *3 (8th Cir. 2020) (finding that a reasonable
juror could conclude that the defendant knew of his prohibited status as a felon where he (1)
stipulated at trial that he had previously been convicted of a felony, (2) had been sentenced to ten

2

The Court notes that the judgment was vacated due to an alternate being present in the jury room during deliberations.
See People v. McGee, 670 N.W.2d 665 (Mich. 2003).
3
In a similar argument, Defendant claims that he was not able to present a defense at trial to “negat[e] the crucial
element of scienter Rehaif identified.” (Doc. 104, p. 5.) However, for the reasons explained above, the Defendant
has not demonstrated that the outcome of the trial would have been different even if Defendant had been permitted to
present a defense to the Rehaif element.

4
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 4 of 6
4

years’ imprisonment and was imprisoned for more than two years before being placed on
supervised release, and (3) fled the scene of the crime); Welch, 951 F.3d at 907 (finding that it was
“not reasonably probable that . . . [the defendant] would have been acquitted” where he had served
several prison sentences longer than one year for felony convictions); United States v. Kachina,
No. 18-2184 (8th Cir. Apr. 16, 2020) (“[defendant] has not established he is entitled to plain-error
relief because . . . he had multiple convictions for which he had received sentences of more than
one year in prison, and there was information in the revised presentence report—to which
[defendant] did not object—indicating that he had actually served multiple prison terms of well
over one year.”)
For these reasons, the Court finds that Defendant has failed to demonstrate that the jury
instructional error affected his substantial rights. 4

Hollingshed, 940 F.3d at 416.

4

Defendant also claims that “the Grand Jury did not consider whether probable cause existed to believe that Mr.
McGee knew he belonged to a class of persons whose status prohibited possession of a firearm,” which violated his
Fifth and Sixth Amendment rights. (Doc. 104, p.4.) However, “[t]he remedy of dismissal for an indictment due to
grand jury abuse is appropriate only upon a showing of actual prejudice to the accused.” United States v. Kouba, 822
F.2d 768, 774 (8th Cir. 1987). Defendant does not set forth any evidence or argument that he would have presented,
so he has not fulfilled his burden of demonstrating actual prejudice.
Instead, Defendant argues that he need not make a showing because “these errors go beyond mere prejudicial error to
break the Constitutional structure for trials enshrined in the Sixth Amendment to ensure a fair and reliable adversarial
determination of guilt or innocence.” (Doc. 104, p. 8.) The Court disagrees. Although the Supreme Court has found
that “there are some constitutional rights so basic to a fair trial that their infraction can never be treated as harmless
error,” not all trial errors automatically call for reversal. Chapman v. California, 386 U.S. 18, 23 (1967). In fact, the
Supreme Court has “applied harmless-error analysis to a wide range of errors and has recognized that most
constitutional errors can be harmless.” Arizona v. Fulminante, 499 U.S. 279, 306 (1991) (collecting cases); Pope v.
Illinois, 481 U.S. 497, 502–03 (1987) (“[I]n the absence of error that renders a trial fundamentally unfair, such as
denial of the right to counsel or trial before a financially interested judge, a conviction should be affirmed where a
reviewing court can find that the record developed at trial established guilt beyond a reasonable doubt....”) (cleaned
up) (citing Rose v. Clark, 478 U.S. 570, 579 (1986)). The Court concludes that the failure to instruct the grand jury
on the Rehaif element did not render the jury trial fundamentally unfair. And absent a showing of prejudice, the Court
finds that the instructional error was harmless.

5
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 5 of 6
5

III. CONCLUSION
For the foregoing reasons, Defendant’s motion for new trial, (Doc. 104), is DENIED.
IT IS SO ORDERED.
/s/ Beth Phillips
BETH PHILLIPS, CHIEF JUDGE
UNITED STATES DISTRICT COURT

DATE: April 16, 2020

6
Case 4:18-cr-00170-BP Document 108 Filed 04/16/20 Page 6 of 6
6

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 20-2289
___________________
United States of America
Plaintiff - Appellee
v.
William C. McGee
Defendant - Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:18-cr-00170-BP-1)
______________________________________________________________________________
JUDGMENT

Before LOKEN, BENTON, and KOBES, Circuit Judges.

The Government's motion for summary affirmance is granted. The court has reviewed the
appellant's brief and the court is satisfied that the appeal is governed by controlling Eighth
Circuit precedent.
September 04, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App B
Case 4:18-cr-00170-BP Document 123 Filed 09/08/20 Page 1 of 1
Appellate Case: 20-2289 Page: 1
Date Filed: 09/04/2020 Entry ID: 4952855
7

